<html>
<title> - PLANES, TRAINS, AND AUTOMOBILES: OPERATING WHILE STONED</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
        PLANES, TRAINS, AND AUTOMOBILES: OPERATING WHILE STONED

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON GOVERNMENT OPERATIONS

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 31, 2014

                               __________

                           Serial No. 113-130

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform


                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
89-703                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="97f0e7f8d7f4e2e4e3fff2fbe7b9f4f8fab9">[email&#160;protected]</a>  

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director

                 Subcommittee on Government Operations

                    JOHN L. MICA, Florida, Chairman
TIM WALBERG, Michigan                GERALD E. CONNOLLY, Virginia 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
THOMAS MASSIE, Kentucky              MARK POCAN, Wisconsin
MARK MEADOWS, North Carolina


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 31, 2014....................................     1

                               WITNESSES

The Hon. Christopher A. Hart, Acting Chairman, U.S. National 
  Transportation Safety Board
    Oral Statement...............................................     9
    Written Statement............................................    11
Jeffrey P. Michael, Ph.D., Associate Administrator for Research 
  and Program Development, National Highway Traffic Safety 
  Administration, U.S. Department of Transportation
    Oral Statement...............................................    24
    Written Statement............................................    26
Ms. Patrice M. Kelly, Acting Director, Office of Drug and Alcohol 
  Policy and Compliance, U.S. Department of Transportation
    Oral Statement...............................................    42
Mr. Ronald Flegel, Director, Division of Workplace Programs, 
  Center for Substance Abuse Prevention, Substance Abuse and 
  Mental Health Services Administration, U.S. Department of 
  Health and Human Services
    Oral Statement...............................................    43
    Written Statement............................................    46

                                APPENDIX

Wall Street Journal 7-29-14, ``Science Collides With the Push to 
  Legalize Pot'' by Peter Wehner, submitted by Rep. Fleming......    70
Response to the New York Times Editorial Board's Call for Federal 
  Marijuana Legalization by Office of Nat'l Drug Control Policy 
  Staff, submitted by Rep. Fleming...............................    72
Answers to questions for the record from Rep. Turner to Jeffrey 
  P. Michael, Ph.D., and Patrice Kelly from NHTSA and DOT, 
  Respectively, submitted by Rep Farenthold......................    74
Statement from Ms. Patrice M. Kelly..............................    78


        PLANES, TRAINS, AND AUTOMOBILES: OPERATING WHILE STONED

                              ----------                              


                        Thursday, July 31, 2014

                  House of Representatives,
             Subcommittee on Government Operations,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:05 a.m., in 
Room 2154, Rayburn House Office Building, Hon. John Mica 
[chairman of the subcommittee] presiding.
    Present: Representatives Mica, and Connolly.
    Also Present: Representatives Fleming and Blumenauer.
    Staff Present: Melissa Beaumont, Assistant Clerk; Will L. 
Boyington, Deputy Press Secretary; Molly Boyl, Deputy General 
Counsel and Parliamentarian; Sharon Casey, Senior Assistant 
Clerk; John Cuaderes, Deputy Staff Director; Adam P. Fromm, 
Director of Member Services and Committee Operations; Linda 
Good, Chief Clerk; Mark D. Marin, Deputy Staff Director for 
Oversight; Emily Martin, Counsel; Katy Rother, Counsel; Laura 
L. Rush, Deputy Chief Clerk; Andrew Shult, Deputy Digital 
Director; Jaron Bourke, Minority Director of Administration; 
Devon Hill, Minority Research Assistant; and Cecelia Thomas, 
Minority Counsel.
    Mr. Mica. Good morning. I'd like to welcome everyone to the 
Committee on Government Oversight and Reform and our 
subcommittee hearing this morning. This is the Subcommittee on 
Government Operations and I welcome my ranking member, Mr. 
Connolly, and others who may join us this morning.
    The title of today's hearing is Planes, Trains and 
Automobiles: Operating While Stoned. And this, I believe, is, 
what, our fifth hearing on the subject of the impact of 
changing laws on the increasing use of marijuana in our 
society.
    And our subcommittee in particular has jurisdiction and 
part of our charter is the difference between Federal and state 
laws and the relationships and a whole host of issues that deal 
with, again, Federal-state issues and certainly in our most 
recent history, there's probably been nothing that has provided 
a greater difference in, say, current Federal statutes and 
changing state and local statutes than the marijuana issue. So 
it's an important matter and we try to approach it and look at 
all of the aspects and impacts.
    The order of business this morning will be opening 
statements. I'll start with mine, yield to Mr. Connolly.
    I see we have Mr. Fleming. I don't believe Mr. Fleming is a 
member of the committee, but I ask unanimous consent that, and 
without objection, that he be permitted to participate in 
today's proceedings, and other members who may join us. Right 
now there are a number of conferences going on around the Hill.
    With that, after the opening statements, we'll hear--I see 
we have four witnesses, we'll hear from them. We'll withhold 
questions until we've heard from all of our panelists and get 
to introduce you and swear you in after the opening statements. 
So with that, let me begin.
    Again, I have an important responsibility to look at 
changing laws. This subcommittee has, in fact, been 
investigating the Federal response to state and local 
government legalization and change of laws relating to 
marijuana and examining the Administration's sometimes chaotic 
and inconsistent policies on marijuana.
    In fact, most of our proceedings since the beginning of the 
year have been based on a statement that the President made, 
and he said that marijuana was not much different than alcohol 
and I think one of our first hearings was to bring in the 
Office of National Drug Control Policy, who differed with the 
President's statement. We looked at that issue, then we heard 
from the law enforcement agencies. DEA, they disagreed with 
that statement.
    Then we saw the conflict in Colorado and other states. 
Department of Justice had issued some guidelines and statements 
relating to enforcement. We heard, as I recall, from the U.S. 
Attorney from Colorado, who testified about some of the 
problems. We heard from DEA and other agencies.
    As we were doing one of the hearings, the District of 
Columbia changed its law on possession, tampering down the fine 
to $25 for 1 ounce of marijuana, and I illustrated by holding 
up a fake joint. Some people thought that was entertaining, but 
it was also designed to illustrate you could have 28 of those 
joints now in the District and that would be the results and 
the $25 fine. And then I held up in the other hand a list of 26 
Federal agencies that were charged with enforcing conflicting 
Federal law, and it does create a serious dilemma and 
situation.
    And, again, I think today is very important, because having 
chaired Transportation, and you see the results of the 
devastation, just for example, on our highways. Probably in the 
last dozen years, we've had a quarter of a million Americans 
slaughtered on the highways. Think about that: over a quarter 
of a million. We've gotten it down. It was down in the 30 some 
thousand, but it was running in the mid, almost mid 40,000, and 
that's fatalities and half of those fatalities are related to 
people who are impaired through alcohol or drugs.
    And as we embark on this new era with many more people 
exposed to what is now still a Schedule I narcotic and more 
potent, as we heard from some of the scientific folks, we are 
going to have a lot more people stoned on the highway, and 
there will be consequences.
    We do have Federal agencies, and we'll hear from the 
Department of Transportation to see how they're going to deal 
with both vehicles, both passenger vehicles, with commercial 
vehicles. And then also, and I don't know if we could put up 
some of those charts to see some of the devastation, but--or 
the photos. Aviation is another area. Maybe you could put some 
of those up there. We haven't gotten into commercial, and we'll 
talk about that, but these are civil aircraft. Just keep 
flipping them. Every one of these were involved with people 
impaired.
    And the way we find out right now if they were impaired 
was, in fact, by testing the corpse, the blood, and this is 
some of the results we see.
    The worst train incident that we've had probably in recent 
memory--keep flipping that to--let's see if we can--this is the 
Metro link. Look at that, 25 people killed, and the engineer 
was impaired with marijuana and then automobiles again. I just 
showed one on automobile, but there are thousands of accidents 
that involve some just marijuana, some a deadly combination of 
marijuana and other drugs taking lives. So there are 
consequences to what's being done in our society.
    Today I want to also focus on the aspect of not only the 
number of crash victims, but also those who are the most 
vulnerable in this whole process. Right now, listen to this, 
from 1999 to 2010, the number of crash victims with marijuana 
in their system has jumped from 4 percent to over 12 percent, 
and that's actually as some of this has been kicking in.
    Furthermore, the influence of both alcohol and marijuana, 
they say, is now 24 times more likely to cause an accident than 
a sober person and I could cite some of these studies. In a 
study, 27 percent of the seriously injured drivers tested 
positive for marijuana.
    Now, again, one of my major concerns is the impact of the 
most vulnerable in our society, and the trend is most troubling 
for our young drivers. Most recently one eighth grade school 
senior admitted driving after smoking--one in eight, I'm sorry, 
high school seniors admitted to driving after smoking 
marijuana, and nearly 28 percent of the high school seniors 
admit to getting into the car of a driver who had recently used 
marijuana or other illicit drugs. At night, 16 percent of the 
drivers under age 21 tested positive for drugs, whereas only 7 
percent of the same drivers tested positive for alcohol.
    As drugged driving fatalities have tripled, a study has 
found nearly half of the drivers fatally injured in car 
accidents are under the age of 25. That slaughter I talked 
about on the highways is impacting no other group as much as 
our young people and those particularly are teenagers and those 
under age 25. As much as 14 percent of fatal or sustained 
injury drivers tested positive for THC in 2012; however, we 
don't have to have data to understand the full scope of the 
problem.
    Data collection policies are set up by states, and 
generally testing only occurs, unfortunately, with drivers with 
fatalities. Drivers who have used marijuana do not exhibit the 
same intoxication effects as drivers who have used alcohol, and 
traditional field testing is not always effective to identify 
and remove intoxicated drivers from the road. In fact, we have 
no standard test for marijuana, for drivers. There is no 
standard test. We don't have Federal standards of limits of 
THC, since right now at the Federal level, any level of THC is 
illegal, it is a Schedule I narcotic, and supposedly zero 
tolerance, but we have no way of testing that.
    Currently, there's no roadside breathalyzer for marijuana, 
but technology is advancing and some countries have started to 
use a roadside oral test. Now, this is one of those testing 
machines, and this is used actually in Europe and as I 
understand, it takes a swab. I was going to swab the panelists, 
but I thought I wouldn't do that today, but you could take a 
swab with this and it can tell you if anyone has used marijuana 
within 4 hours. But, again, we have no standard, we have no 
acceptable test, and we have no way of telling if people are 
impaired.
    Most of the data we're getting right now is from, again, 
fatalities and you either have to take an individual to a 
hospital for a blood or urine test, or, again, the worst 
situation is to the morgue where we test their blood.
    In the past 10 years, marijuana was a factor in nearly 50 
aviation accidents. I showed some of the civil aviation. We 
haven't even begun to think of what can happen in the 
commercial market as more people are exposed to marijuana. We 
now have 23 states with medical use and two states who have 
knocked down most of the barriers and more people will have, 
again, exposure to use of marijuana and very little means of 
testing them.
    The National Transportation Safety Board has investigated 
different accidents, and found, again, the use of THC in a 
number of these accidents, but, again, all of their testing is 
done after the fact and usually where a fatality is involved.
    The witnesses today will tell us what, if anything, the 
Federal Government is doing to combat drug-impaired operation 
of any transportation mode. And, again, we have a whole host of 
modes that the Federal Government takes responsibility over, 
vehicular, simple passenger cars, commercial vehicles, cargo, 
of course rail, both passenger and cargo, and of course 
aviation, civil and commercial aviation.
    We'll hear from Christopher Hart from the National 
Transportation Safety Board, Jeff Michael from the National 
Highway Traffic Safety Administration, Patrice Kelly from the 
Department of Transportation Office of Drug and Alcohol Policy 
Compliance, and Mr. Ronald, what is it, Flegel, Mr. Flegel of 
the Substance Abuse and Mental Health Administration.
    So I look forward to today's further and continuing 
discussions on this issue that has a great impact on all of us.
    And yield now to the ranking member, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman, and thanks for 
holding today's hearing to examine the effects of marijuana on 
the ability to operate planes, trains and automobiles. I'm 
going to particularly focus in on the automobile, but not to 
the exclusion of everything else.
    This hearing addresses an aspect of marijuana policy where 
I believe there's general agreement over the desired outcome: 
reducing the incidents of vehicle accidents resulting from 
driving while under the influence of any drugs. Across the 
political spectrum, there's widespread opposition to allowing 
driving while under the influence of any drug that impairs an 
individual's ability to operate a vehicle safely. Where 
differences emerge are over the most effective policy to 
achieve this widely shared outcome, which I think we can all 
agree remains a national challenge.
    According to the National Survey on Drug and Health Use--
Drug Use and Health, excuse me, approximately 10.3 million 
people have admitted to driving while under the influence of 
illicit drugs in the past year. The Centers for Disease Control 
and Prevention report that in 2010, 10,228 people were killed 
in alcohol-impaired driving crashes, accounting for 31 percent 
of all traffic-related deaths in the United States.
    These statistics are alarming and unacceptable. Our Nation 
must continue reducing the incidents of any drug-impaired 
driving deaths. A key component to this longstanding effort 
will be improving our knowledge base through better data and 
research.
    With respect to the focus of today's hearing, there's been 
very limited research actually conducted by the Federal 
Government addressing the relationship between marijuana usage 
and driving safety. Reports from the National Highway Traffic 
Safety Administration conclude that THC, the psychoactive 
ingredient in marijuana has dose-related impairing effects on 
driving performance. For example, NHTSA has previously 
reported, quote, ``the impairment manifests itself mainly in 
the ability to maintain a lateral position on the road, but its 
magnitude is not exceptional in comparison with changes 
produced by many medicinal drugs and alcohol, yet NHTSA also 
found that marijuana intoxication is short-lived. Peak acute 
effects following cannabis inhalation are typically achieved 
within 10 to 30 minutes, with the effects dissipating quickly 
after about an hour. According to NHTSA, drivers under the 
influence of marijuana retain insight in their performance and 
will compensate when they can, for example, by slowing down or 
increasing effort. As a consequence, THC's adverse effects on 
driving performance appear relatively small,'' unquote.
    Meanwhile, the National Transportation Safety Board held a 
public forum to discuss the most effective data-driven, 
science-based actions to reduce accidents resulting from 
substance impaired driving. In May 2013, it released a safety 
report entitled, Reaching Zero: Actions to Eliminate Alcohol-
Impaired Driving, in which it reiterated a recommendation from 
NHTSA to develop a common standard of practice for drug 
toxicology testing.
    Scientific analysis and technological advances have 
standardized the use of a breathalyzer and the 0.8 percent 
blood alcohol concentration limit to determine alcohol 
intoxication; however, states beginning to implement marijuana 
decriminalization, and there are now 22 of them plus the 
District of Columbia, must act swiftly to address the fact that 
there really is no legal limit set for driving under the 
influence of marijuana as there is with alcohol.
    For instance, field sobriety tests may be accurate and 
effective in detecting marijuana impairment. A study of the 
U.K. examining the accuracy of field sobriety tests in gauging 
the amount of marijuana participants had consumed, concluded 
that there is, quote, ``a strong correlation between cannabis 
dose received and whether impairment was judged to be 
present,'' unquote.
    Of course, anecdote must not substitute for rigorous 
scientific data. That's why I believe we must support further 
research in this field to inform the development of effective 
public safety policies regulating marijuana and my friend, Dr. 
Fleming, and I had a discussion at one of our hearings on this 
very matter, and I think we agree that that has to be the basis 
for moving forward, it's got to be based in science, and we 
need more of it.
    My concerns over the ineffectiveness of our Nation's 
existing Federal policy of absolute marijuana prohibition is no 
more of an endorsement of its recreational purposes use than 
opposing prohibition of alcohol is an endorsement for drunk 
driving. Our Nation proved with respect to policies regulating 
the use of other potentially harmful substances that 
discouraging the inappropriate use of drugs need not, and 
perhaps should not, involve total prohibition and 
criminalization.
    I've long believed that the Federal Government governs best 
when it listens and learns from our states, which are the 
laboratories of democracy. Right now those states are 
undergoing a great experiment with respect to this subject, and 
we need to learn from their experience and hopefully emulate 
them in regulations and policies in the future that address 
both use, appropriate use, medicinal purposes and, of course, 
the issue of criminalization.
    Thank you, Mr. Chairman.
    Mr. Mica. Thank the gentleman.
    Mr. Mica. And I recognize now Mr. Fleming, if he had an 
opening comment.
    Mr. Fleming. Thank you, Mr. Chairman.
    I would like to thank Chairman Mica and the other members 
of the Government Operations Subcommittee for allowing me to 
participate in today's hearing. I would also like to thank the 
chairman for holding this series of hearings that are so 
vitally important.
    You know, it took us centuries of alcohol in our culture 
and it took a new organization, a then new organization, 
Mothers Against Drunk Driving, to realize that we were losing 
Americans wholesale, by the tens of thousands as a result of 
driving under the influence of alcohol.
    It took us approximately 400 years to figure out that 
tobacco was similarly killing tens of thousands of Americans 
every year. In fact, as early as--or as recently as the early 
1960's, there were commercials in which doctors were actually 
recommending certain types of cigarettes, saying that it was 
good for your throat. I worry that we're not, in fact, in the 
same situation in this case when it comes to marijuana.
    Drugged driving is a serious problem. According to the 
statistics compiled by the 2012 National Survey On Drug Use and 
Health, about 10.3 million people 12 and over reported driving 
while under the influence of an illegal drug. Marijuana's 
active ingredient, THC, is the most common drug found in 
drivers and crash victims alike. Studies indicate that between 
4 to 14 percent of drivers involved in accidents, fatal or 
otherwise, had THC in their system. Marijuana decreases a 
driver's response time, awareness and perception of time and 
speed, all of which are necessary for safe driving.
    Another concern of mine is the combination of drugs and 
alcohol. You see, whenever you hear this debate, you often hear 
that marijuana is innocuous to begin with, and number two, it's 
either or: either someone smokes marijuana or they drink 
alcohol. That's not the way it works. Individuals who are 
driving under the influence of marijuana will have little 
inhibitions for drinking beer and alcohol and other substances 
as well, smoking a joint behind the weed or whatever it takes 
to get high or feel good.
    The Rocky Mountain High Intensity Drug Trafficking Area, 
which works closely with the White House's National Drug 
Control Strategy, is collecting data on the impact of 
Colorado's legalization of marijuana. An August 2013 report 
indicated that in 2006, Colorado drivers testing positive for 
marijuana were involved in 28 percent of fatal drug-related 
vehicle crashes. That number increased to 56 percent by 2011. 
And understand that in states that are decriminalizing and 
legalizing marijuana, and certainly we know from NIDA, who's 
done some work on this, that as marijuana is de-stigmatized, as 
a threat to use is reduced, that use goes up, it finds its way 
into homes, into candy, into cookies and baked goods, and once 
it gets there, it finds its way into the brains of teens.
    And we know from statistics that marijuana has a 9 percent 
addiction rate among adults, but those who start as teens, that 
rate doubles to one in six. So it's very important what's 
happening in these states who are legalizing and even 
decriminalizing or medicinalizing marijuana.
    This Year's Rocky Mountain HIDTA report on 2012 data is 
also very alarming. Using data from the National Highway Safety 
Administration Fatality Analysis Reporting System, FARS, this 
year's report, due out in October, will show that between 2007 
and 2012, while Colorado's overall traffic fatalities decreased 
by 15 percent, over that same time, marijuana-related 
fatalities increased 100 percent. Earlier this year, the 
University of Colorado released a study confirming that 
Colorado drivers are testing positive for marijuana and 
involved in fatal accidents is on the rise.
    There is no hard and fast way to determine whether an 
individual is driving under the influence and there's yet to be 
established a uniform amount of marijuana which constitutes 
drugged driving, and that is very important, because, you see, 
in the case of alcohol, when you arrest someone for--if they've 
not been in an accident, you just caught them driving under the 
influence, with so many episodes of that arrest, that person 
loses their license, they're taken off the road. That's not 
happening with marijuana. We don't have a way to do that yet.
    While driving under the influence is unquestionably a 
problem, it is also concerning that pot smoking American youth 
may also have trouble finding a job. This is especially true in 
the transportation arena. The U.S. Department of Transportation 
requires mandatory drug testing on pilots, air traffic 
controllers, railroad employees and commercial drivers, and 
that can include buses, it can include 18 wheelers, anything 
that requires a CDL license. These individuals are responsible 
for numerous lives, and it's critical that they are and remain 
drug free.
    Marijuana will also become more pervasive as states 
continue to embrace permissible laws on medical marijuana, and 
the recreational use of marijuana in kids and youth will have 
easier access to a dangerous, addictive drug and, again, back 
to the medicinal marijuana, there's no reason why we can't use 
components of marijuana for disease treatment.
    Right now we already have Marinol, which is a Schedule III, 
can be used under the monitoring and observation of a 
physician, closely monitored at the dosage precisely 
prescribed, and can be done safely, just like hydrocodone. It 
has the same activity and benefit that the plant marijuana has. 
It is a synthetic THC. We have that already.
    There is some claim that there are extracts, oils extracts 
of cannabis that can be used to treat certain rare seizures in 
children. Well, it has little or no THC activity. There's no 
reason why that--and it's under fast track FDA approval right 
now. There's no reason why that can't be taken out as well, but 
there's no reason to de-schedule or to make legal marijuana, 
which is now Schedule I, for those purposes. All of those 
things can be done without reducing the schedule or to legalize 
the marijuana plant itself.
    Mr. Chairman, it's no surprise to you or to anyone here 
that I am opposed to the legalization of marijuana. What is 
surprising, however, is that the New York Times editorial board 
is fully supportive of the legalization of marijuana.
    Mr. Chairman, I have two response pieces to the New York 
Times that I would like to submit for the record, one from the 
White House Office of National Drug Policy and another opinion 
piece by Peter Wehner published in The Wall Street Journal on 
Tuesday. Legalization is not the answer nor is it a prudent 
decision for America. Marijuana remains a dangerous, highly 
addictive drug. Even science will tell you that.
    Thank you, and I yield back.
    Mr. Mica. Without objection, both of those articles, 
statements will be made part of the record.
    Mr. Mica. There being no further opening statements, 
members may have 7 days to submit opening statements for the 
record.
    Mr. Mica. Now let me proceed and recognize our first panel.
    The first panel consists of Christopher A. Hart, and he's 
the acting chairman of the National Transportation Safety 
Board; Mr. Jeff Michael is the associate administrator for 
research and program development at the National Highway 
Traffic Safety Administration; Ms. Patrice Kelly is acting 
director for the Office of Drug and Alcohol Policy and 
Compliance at the Department of Transportation; and Mr. Ron 
Flegel is the director for the division of workplace programs 
at the Center for substance abuse prevention at the Substance 
Abuse and Mental Health Administration. I welcome all of our 
panelists.
    This is an investigative and oversight subcommittee of 
Congress. We do swear in all of our witnesses. If you'll stand, 
please, raise your right hand. Do you solemnly swear or affirm 
that the testimony you're about to give before this 
subcommittee of Congress is the whole truth and nothing but the 
truth?
    All of the witnesses, the record will reflect, answered in 
the affirmative. Welcome them again.
    And I gave misinformation on a statistic, and I didn't 
realize it until after I said it, and I want to clarify that 
for the record. I said nearly a quarter of a million people had 
been killed in the last dozen years on our highway. It's nearly 
a half a million people, a half a million people. Think about 
that. And half of those people died, that's nearly a quarter of 
a million, with either alcohol or some substance in their 
system. I'll get the exact numbers and we'll put them in the 
record, but I didn't give the rest of the story, as Paul Harvey 
would say.
    Mr. Mica. With that correction for the record, let me first 
welcome and recognize Mr. Hart. Welcome, and you're recognized, 
sir.


                       WITNESS STATEMENTS

           STATEMENT OF THE HON. CHRISTOPHER A. HART 

    Mr. Hart. Good morning, Chairman Mica, Ranking Member 
Connolly, and members of the subcommittee. Thank you very much 
for inviting the NTSB to testify today.
    The subcommittee's focus on Federal marijuana policies 
affecting transportation is very timely. We've been working 
extensively for many years to address alcohol use by drivers, 
which you've heard about already in the opening statements, but 
that still kills almost 10,000 people every year on our 
highways. Now we're becoming more concerned that our 
investigations also illustrate the problems of marijuana use in 
transportation operations.
    Among the more egregious drug-involved accidents that are 
listed in my written testimony are a recreational boating 
accident in Ponte Vedra, Florida, that killed five, a daycare 
van driver in Memphis, Tennessee, who was high and crashed, 
causing five deaths, and a railroad accident in Chase, 
Maryland, that killed 16 that's already been referred to. But 
we don't have a good idea of the number of drug-related 
transportation fatalities.
    We're not surprised about the growing evidence of drug use 
by drivers, pilots and others, however, given that as we have 
heard, many states have authorized medical marijuana programs 
and two states have decriminalized recreational use of the 
drug. In addition, recent news reports have noted pressure to 
decriminalize marijuana at the Federal level as well. Perhaps 
most disturbing, as we've heard mentioned in the opening 
statements, is evidence that marijuana use among teenage 
drivers is increasing and their perceived risk of marijuana use 
is decreasing.
    In 2013, we completed a year-long review of substance-
impaired driving, which included drug use and we concluded that 
there is not enough data on drugged driving. Consequently, we 
asked NHTSA to establish guidelines for collecting this data to 
enable policy makers to make more informed decisions regarding 
how to address this important issue, and we understand that 
NHTSA is working on this recommendation.
    Lack of data about drug impairment is not only a problem in 
highway accidents, but also in other transportation modes. In 
general aviation, our investigators sometimes see evidence of 
drug use by pilots who are involved in accidents. So we've 
decided it was time to look at this issue in greater detail. In 
September, we will meet to discuss drug use in general aviation 
by examining toxicology testing results conducted on fatal 
injured general aviation pilots. We will look at over-the-
counter, prescription, and illicit drugs in pilots. We are 
missing important data on the role of illegal drugs, and not 
only that, but the public is pretty much unaware of important 
information about how legal drugs may also affect their 
performance. We will also examine drug use in general aviation 
pilots as compared to trends observed in the U.S. Population in 
general. Information that we obtain in this September meeting 
will help us evaluate whether there is a need for additional 
recommendations or other advocacy efforts on our part.
    Fortunately, shifting state laws have not resulted in 
changes in illegal drug use policies for commercial operators. 
You'll hear on this panel today that the Department of 
Transportation has stated that it continues to have a zero 
tolerance policy for drug use, illegal drug use by commercial 
operators, and the NTSB fully supports that policy.
    What is clear is that operator impairment places the public 
in jeopardy. Impaired drivers share the roadways with other 
drivers, impaired pilots share the air space with other pilots. 
Impaired mariners share the seas with other mariners. And 
across all modes, many operators have passengers that may be 
placed at risk.
    Too many people died on our roadways from alcohol-impaired 
driving before strong action was taken to combat it. That 
strong action has reduced fatalities tremendously, but there 
are still too many alcohol-related deaths, and every one of 
them is entirely preventable. Hopefully, we will not wait for 
more people to die from drug-induced transportation accidents 
before we take strong and decisive action.
    Hearings like this one today will help inform policymakers 
on the issues that so that effective laws can be crafted, 
strong enforcement can be implemented, and robust education 
efforts can be accomplished in all modes of transportation, and 
we look forward to working with you to draw more attention to 
this issue.
    Again, thank you for inviting me to testify. I look forward 
to responding to your questions.
    Mr. Mica. Thank you. And we will withhold questions until 
we've heard from everyone.
    [The prepared statement of Mr. Hart follows:]

    [GRAPHIC] [TIFF OMITTED] T9703.001
    
    [GRAPHIC] [TIFF OMITTED] T9703.002
    
    [GRAPHIC] [TIFF OMITTED] T9703.003
    
    [GRAPHIC] [TIFF OMITTED] T9703.004
    
    [GRAPHIC] [TIFF OMITTED] T9703.005
    
    [GRAPHIC] [TIFF OMITTED] T9703.006
    
    [GRAPHIC] [TIFF OMITTED] T9703.007
    
    [GRAPHIC] [TIFF OMITTED] T9703.008
    
    [GRAPHIC] [TIFF OMITTED] T9703.009
    
    [GRAPHIC] [TIFF OMITTED] T9703.010
    
    [GRAPHIC] [TIFF OMITTED] T9703.011
    
    [GRAPHIC] [TIFF OMITTED] T9703.012
    
    [GRAPHIC] [TIFF OMITTED] T9703.013
    
    Mr. Mica. And now let me recognize Jeff Michael, who's with 
the National Highway Traffic Safety Administration. You're 
recognized.


                STATEMENT OF JEFFREY P. MICHAEL

    Mr. Michael. Good morning, Mr. Chairman, Ranking Member 
Connolly, and members of the subcommittee. I appreciate this 
opportunity to testify before you today on the National Highway 
Traffic Safety Administration's research on drugged driving.
    NHTSA takes tremendous pride in our 40-year record of 
protecting Americans by partnering with states to enforce 
strong highway safety laws and by working to make vehicles 
safer. Since 1970, highway fatalities have declined by 36 
percent, traffic deaths have fallen by 22 percent just in the 
past decade, but with more than 30,000 fatalities on America's 
roadways each year, we must continue looking at new and 
innovative ways to save lives.
    Working with our state partners and other safety 
organizations, we've made substantial progress with critical 
safety behaviors, including drunk diving, seatbelt use, and 
have applied the same successful approaches to emerging 
concerns, such as distracted driving.
    The legalization of marijuana under state laws poses new 
concerns, and we are actively working from our foundation of 
experience to understand these risks and develop appropriate 
countermeasures.
    Available evidence indicates that alcohol is the most 
common source of driver impairment. In 2012, more than 30 
percent of all traffic deaths involved a driver with blood 
alcohol level at or above the legal limit. With more than 40 
years of research, several decades of data collection and a 
well established criminal justice process, traffic safety 
professionals have a good understanding of the scale and the 
nature of the drunk driving problem. Much more research is 
needed to gain a good understanding of the effects of drugs 
other than alcohol on safe driving.
    In 2007, we obtained the first nationally representative 
information on the prevalence of drug use by drivers by 
including drug testing in our national roadside survey. 
Although this survey had been used to track driver alcohol use 
for several decades, this was the first time that information 
on drug use was collected. This survey, based on information 
from voluntary and anonymous participants, found that about 12 
percent of weekend drivers were alcohol positive and about 9 
percent were marijuana positive. We repeated the national 
roadside survey in 2013, and we are in the process of analyzing 
those data.
    To understand how state level legalization might affect the 
prevalence of marijuana by drivers, we partnered with the State 
of Washington, at their invitation, this spring to conduct a 
similar roadside survey. This is a two-phase study that will 
assess the change in marijuana use by drivers before and 
following the date at which the state allowed retail sale of 
the drug.
    In addition to prevalence research, we also need 
information on the degree of risk associated with drug use. We 
are in the process of completing a new study which compares the 
crash risk of drivers using drugs to those with no drugs in 
their system. This is the first such investigation of drug-
crash risk in the United States, and more research of various 
types will be needed to get a full understanding of the role of 
drugs in crashes. As we prepare to release the results of this 
new study, we plan to reach out to stakeholders, including 
committee staff, to inform them of the findings.
    Strong laws and law enforcement are cornerstones of our 
efforts to address alcohol-impaired driving, and we are looking 
to the same solutions for drugged driving. We worked closely 
with the law enforcement community to develop a network of more 
than 7,000 drug recognition experts across the Nation. These 
trained officers can significantly facilitate the successful 
prosecution of drugged driving cases.
    We are also looking closely at procedural barriers to 
effective drugged driving law enforcement, and recognize the 
challenges presented by drug testing methods. While the 
prosecution of alcohol-impaired driving cases is complex, 
evidential testing for alcohol can typically be done at the 
jurisdiction by local officials with a moderate amount of 
training. Testing for drug presence among suspected impaired 
drivers is often far less convenient, requiring that a blood 
sample be drawn, sent to a remote lab for analysis by highly 
trained personnel. The cost and delay of such testing can be a 
disincentive for criminal justice officials to pursue a drugged 
driving charge.
    In conclusion, NHTSA's committed to reducing both alcohol 
and drug-impaired driving, we support the development of 
effective education enforcement programs with guidance for 
state officials based on sound research. Much progress has been 
made, however, impaired driving still claims more than 10,000 
lives per year.
    Thank you again for inviting me to testify before your 
committee, and I'm happy to take any questions you may have.
    Mr. Mica. Thank you.
    [The prepared statement of Mr. Michael follows:]

    [GRAPHIC] [TIFF OMITTED] T9703.014
    
    [GRAPHIC] [TIFF OMITTED] T9703.015
    
    [GRAPHIC] [TIFF OMITTED] T9703.016
    
    [GRAPHIC] [TIFF OMITTED] T9703.017
    
    [GRAPHIC] [TIFF OMITTED] T9703.018
    
    [GRAPHIC] [TIFF OMITTED] T9703.019
    
    [GRAPHIC] [TIFF OMITTED] T9703.020
    
    [GRAPHIC] [TIFF OMITTED] T9703.021
    
    [GRAPHIC] [TIFF OMITTED] T9703.022
    
    [GRAPHIC] [TIFF OMITTED] T9703.023
    
    [GRAPHIC] [TIFF OMITTED] T9703.024
    
    [GRAPHIC] [TIFF OMITTED] T9703.025
    
    [GRAPHIC] [TIFF OMITTED] T9703.026
    
    [GRAPHIC] [TIFF OMITTED] T9703.027
    
    [GRAPHIC] [TIFF OMITTED] T9703.028
    
    [GRAPHIC] [TIFF OMITTED] T9703.029
    
    Mr. Mica. And we'll now hear from Ms. Patrice Kelly, and 
she's acting director of the Office of Drug and Alcohol Policy 
at the department--Compliance at the Department of 
Transportation.
    Welcome, and you're recognized.


                 STATEMENT OF PATRICE M. KELLY

    Ms. Kelly. Thank you, Chairman Mica, Ranking Member 
Connolly, members of the subcommittee. I appreciate the 
opportunity to appear before you to discuss the potential 
impacts on commercial transportation of recent state and local 
legislation that allow recreational and medicinal marijuana 
use.
    The transportation industry drug and alcohol testing 
program for commercial operations is a critical element of the 
Department of Transportation's safety mission. Airline pilots, 
truck drivers, subway operators, mariners, pipeline operators, 
airline mechanics, locomotive engineers, motor coach drivers 
and school bus drivers, among others, have a tremendous 
responsibility to the public, and we cannot let their 
performance be compromised by drugs or alcohol.
    Today I will provide you with a brief history of our 
program, the scope of its application, and finally, an 
explanation of our policy regarding the use of marijuana for 
medical or recreational purposes by individuals who work in 
federally-regulated transportation industries.
    The DOT drug and alcohol testing program was first 
established in 1988 following the Department of Health and 
Human Service's development of drug testing in alcohol--drug 
and alcohol testing for Federal employees. The DOT program was 
initiated in response to transportation industry fatal 
accidents that occurred due to illegal drug use.
    In 1991, Congress enacted the Omnibus Transportation 
Employee Testing Act, OTETA, which required the DOT to expand 
the application of its program to include mass transit, and 
modify its regulations to address the statutory requirements.
    The DOT program always has required transportation industry 
employers to have drug and alcohol testing programs that 
require their employees to be removed from performing safety 
sensitive duties immediately if they have drug or alcohol 
violations.
    Throughout the history of our program, and consistent with 
Congress's direction in OTETA, we have relied on HHS for its 
technical and scientific expertise for determining the types of 
drugs for which we test, the testing methodology we must use in 
our program, and the integrity of the HHS certified 
laboratories in testing the specimens and reporting the 
results. We are limited to testing for the controlled 
substances included in the HHS mandatory guidelines.
    Currently, those substances include Schedule I, illegal 
drugs, and Schedule II, legally prescribed drugs. The drugs and 
classes of drugs for which we test are cocaine, opiates, 
amphetamines, phencyclidine and marijuana. If an employee tests 
positive for any of those substances, the employer must take 
immediate action to remove the employee from performing safety 
sensitive duties until that employee successfully completes 
treatment and additional testing. Currently there are 
approximately 5 million DOT-regulated safety sensitive 
employees that are subject to our drug and alcohol testing 
program.
    The Department's policy on the use of Schedule I controlled 
substances has remained unchanged since our program began in 
1988. There is no legitimate explanation, medical or otherwise, 
for the presence of a Schedule I controlled substance, such as 
marijuana, in an employee's system.
    In December 2009, following the Department of Justice's 
issuance of guidance for Federal prosecutors in states that 
enacted laws authorizing the use of medical marijuana, we 
issued a reminder to our regulated entities that under the DOT 
testing program, medical marijuana use authorized under state 
or local law is not a valid medical explanation for 
transportation employees' positive drug test results. Although 
there has been recent movement by some states to allow 
recreational use of marijuana by their citizens, the DOT 
program does not and will not authorize the use of Schedule I 
controlled substances, including marijuana, for any reason by 
any individual conducting safety sensitive duties in the 
transportation industry.
    In December of 2012, we issued a notice explaining that 
state and local government initiatives allowing the use of 
recreational marijuana will have no bearing on the Department 
of Transportation's drug testing program nor any individual 
subject to testing. It remains unacceptable for any safety 
sensitive employee subject to the DOT's drug testing 
regulations to use marijuana and continue to perform safety 
sensitive duties in the federally regulated transportation 
industries.
    Chairman Mica, this concludes my testimony. I would be 
happy to answer any questions you or your colleagues have.
    Mr. Mica. Thank you. And we'll hold questions.
    Mr. Mica. Ron Flegel is the director for the Division of 
Workplace Programs at the Center for Substance Abuse 
Prevention, at Substance and Abuse Mental Health 
Administration.
    Welcome, and you're recognized.


                   STATEMENT OF RONALD FLEGEL

    Mr. Flegel. Thank you. Good morning, Chairman Mica, Ranking 
Member Connolly, and distinguished members of the subcommittee.
    My name is Ron Flegel and I am the director of division of 
workplace programs at the Center of Substance Abuse Prevention 
within the Substance Abuse and Mental Health Service 
Administration, or SAMHSA. It's an agency of the Department of 
Health and Human Services. I am pleased to speak with you this 
morning about SAMHSA's role as it pertains to the issue of drug 
testing for marijuana, particularly as it relates to drugged 
driving.
    SAMHSA's mission is to reduce the impact of substance abuse 
and mental illness on America's communities. SAMHSA strives to 
create awareness that behavioral health is essential for 
health, prevention works, treatment is effective, and people 
recover from mental and substance use disorders.
    Driving under the influence of drugs or alcohol continues 
to pose a significant threat to public safety. The 
administration has focused on four key areas to reduce drugged 
driving: increased public awareness, enhancing legal reforms to 
get drugged drivers off the road, advancing technology for drug 
tests and data collection, and increasing law enforcement's 
ability to identify drugged drivers. These efforts remain the 
administration's focus for the upcoming year.
    SAMHSA has several roles as it pertains to the issue of 
drugged driving. We conduct surveillance through the National 
Survey on Drug Use and Health, as said today; we provide 
funding for drugged driving prevention efforts; offer technical 
assistance about prevention of drugged driving to grantees and 
the general public; and evaluate grantees that are focused 
efforts on the problem.
    SAMHSA administers the Federal Drug-Free Workplace Program, 
which includes the random testing of national security, public 
health and public safety positions within the executive branch 
agencies.
    Currently, nine states are focused on drugged driving 
prevention efforts using SAMHSA's grant funds. SAMHSA also 
provides state-of-the-science training and technical assistance 
to states and communities, and thus addresses drugged driving 
if states and communities choose to make this a focus of their 
efforts and/or if the data suggests that drugged driving is an 
issue in their state or community.
    SAMHSA's Division of Workplace Program has a unique and 
nationally important regulatory role and technical assistance 
role and responsibility for Federal and non-Federal workplaces 
with respect to their drug-free workplace policies and 
programs. DWP has oversight responsibility of the HHS certified 
laboratories operating under the mandatory guidelines for 
Federal workplace testing program requirements. The HHS 
certified laboratories conduct forensic drug testing for 
Federal agencies under Executive Order 12564, and the Federal 
drug-free workplace program issued by President Reagan in 1986, 
and the Supplemental Appropriations Act of 1987, public law 
100-71, as well as specific federally-regulated industries.
    The Federal drug-free workplace program was established as 
a deterrent program incorporating detection as well as 
referrals for treatment as needed for Federal employees in 
safety sensitive positions, while protecting national security 
and public safety.
    Public law 100-71 directs HHS to publish mandatory 
guidelines using the best available technology to ensure the 
reliability and accuracy of drug tests and to specify the drugs 
for which Federal employees may be tested; hence, the mandatory 
guidelines established the scientific and technical guidelines 
for Federal drug testing programs and established standards for 
certification of laboratories engaged in drug testing for 
Federal agencies and the regulated industries.
    Currently, 157 Federal agencies are affected by the 
guidelines based on public law and executive order. The 
executive order covers approximately 2.2 million executive 
branch employees and job applicants. The Department of 
Transportation and Nuclear Regulatory Commission utilize the 
SAMHSA guidelines in their regulatory testing programs 
requiring testing of over 5 million safety sensitive employees 
and applicants in DOT-regulated transportation related 
industries nationally, and an additional 2 million employees 
and applicants in the nuclear industry.
    In the private, non-regulated sectors, we have 
approximately had 20 to 50 million Americans that are tested as 
applicants or employees using some aspect of SAMHSA's 
guidelines.
    Currently, urine is the only specimen a Federal agency may 
collect under the guidelines for its workplace drug testing 
program. A Federal agency must ensure that each specimen is 
tested for marijuana and cocaine metabolites and is authorized 
to test each specimen for opiates, amphetamine and 
phencyclidine.
    The SAMHSA guidelines are specific to testing of Federal 
employees for the purpose of workplace settings and do not 
directly govern issues related to drugged driving, however, the 
revised guidelines may impact testing for drugged driving 
through the provisions of scientific standards for oral fluid 
testing. The proposed revisions of the mandatory guidelines are 
still being finalized and will be posted in the Federal 
Register for public comment once completed.
    As I stated at the opening of my testimony, the issue of 
drugged driving continues to be a priority for SAMHSA and the 
administration. SAMHSA, along with other Federal agencies, 
continue to collaborate with state and local governments, non-
governmental organizations and Federal partners to raise 
awareness of the dangers of drugged driving and meet the 
president's goal of reducing drugged driving in America.
    The Administration continues to advance the work on this 
important issue, and we look forward to continuing to work with 
Congress on these efforts.
    Chairman Mica, thank you for this opportunity. I welcome 
any questions from you or your colleagues may have.
    Mr. Mica. Well, thank you.
    [The prepared statement of Mr. Flegel follows:]

    [GRAPHIC] [TIFF OMITTED] T9703.034
    
    [GRAPHIC] [TIFF OMITTED] T9703.035
    
    [GRAPHIC] [TIFF OMITTED] T9703.036
    
    [GRAPHIC] [TIFF OMITTED] T9703.037
    
    [GRAPHIC] [TIFF OMITTED] T9703.038
    
    [GRAPHIC] [TIFF OMITTED] T9703.039
    
    [GRAPHIC] [TIFF OMITTED] T9703.040
    
    [GRAPHIC] [TIFF OMITTED] T9703.041
    
    Mr. Mica. Thank each of our witnesses. And we'll start a 
little round of questions.
    Just, again, to give folks the most accurate information on 
the number of highway fatalities, from 2001 to 2012, and this 
doesn't include 2013, but during that dozen years that I spoke 
of, 468,743 highway fatalities. That's nearly half a million 
people and I'm sure if we include 2013, we would top that. 
That's just a phenomenal devastation and that's fatalities; 
that's not injuries, property damage and everything that has 
gone. Everyone in this room can probably name someone who's 
died or a family member in an automobile fatality. And, again, 
with the changing laws, there are significant consequences.
    So, Mr. Hart, again, where do you see us going as far as 
reaching some positive steps in, one, containing the issue, 
then also adjusting our Federal laws, our regulations, adopting 
standards for tests, the whole spectrum of addressing these 
changing laws? Maybe you could comment generally.
    Mr. Hart. Thank you for the question. As the accident 
investigators, when we investigate accidents and see indication 
of impairment, as we have in every mode, then we're very 
concerned about the need for strong and decisive action, and 
typically that will mean, as you've heard from the other 
panelists, strong legislation, strong enforcement, and good 
education, and in addition, we are look at technologies to help 
us with the detection, so we see that--that needs to be----
    Mr. Mica. Some of that has to be based on data. Some of 
what we have is really not that up to date.
    And I think Mr. Michael testified they started collecting 
some data as recently as 2007, and then you said 2013 data we 
had collected, which we're going the do a comparison of is--but 
that has not been calculated, and when do you expect us to have 
that data?
    Mr. Michael. That is correct, Mr. Chairman. We have 
collected information in 2007 about the presence of drugs, and 
specifically marijuana among drivers on the roadway, and we 
repeated that same data collection during 2013. We are now 
analyzing that, and it will be compared.
    Mr. Mica. But what--my question was when will we see that 
completed?
    Mr. Michael. We expect to have that information, sir, by 
the end of the year.
    Mr. Mica. Okay. Well, if you could check even closer and 
advise the committee and staff, maybe we could ask that 
question. I would like to find out when we'll have that data.
    Now, the next thing that comes to mind is, most of the 23 
states, my state may follow, Florida has an initiative 
referendum coming in and other entities, state entities that 
may change their laws. Do you plan or will there be a plan to 
check some of these states? Now, Florida will change the law 
possibly and others have already changed the law. Some have 
changed the law for some time.
    I'm getting back reports on California that a news reporter 
told me he went out and he said it's a whole different world in 
the uses. Again, much more dramatic than you would expect. It's 
not just medical marijuana use but it's spread, and he was 
telling me, just the societal change and behavioral change.
    So it's having impact, but I think we need to look at doing 
testing. Those are the medical marijuana states, and each one 
of the languages may be a little bit different allowing more 
latitude, but then you have Colorado, which we have had some 
experience to date, but I think we ought to go in and look at 
Colorado. Washington is more recent, but where you have a 
change in law, if its medical marijuana, and again changes 
brought about by that law, and then you have a much more lax 
use or legalization as you have in Colorado, do you have plans 
to go in and do some testing there?
    Mr. Michael. Yes, sir. We are working with the State of 
Washington currently and using the same roadside data 
collection process that we've used across the country looking 
specifically at Washington before and after their legalizing 
the sale of marijuana to assess what effect that may have with 
the levels of use on the roadway.
    Mr. Mica. Okay. Well, again, I think we need accurate data, 
and then we need to adopt our Federal regs and get to Ms. Kelly 
now.
    You have a whole host of areas in which we do some testing 
but most of the testing is periodic, is it not, for marijuana 
use?
    Ms. Kelly. Our program covers preemployment testing to 
start with, so before someone enters----
    Mr. Mica. Right. But then actually----
    Ms. Kelly. --the industry, and then random, and then there 
is reasonable cause testing. There is post-accident testing, 
and then if someone is being positive, then follow up.
    Mr. Mica. The other thing, too, again, in some of these 
states--and the marijuana medical use, there is, again, 
different language and it's allowed more latitude in some 
states and people have taken advantage of that. Are you going 
in and doing more testing say in Colorado or Washington? For 
example, pilots would be more exposed, commercial drivers would 
be more exposed.
    In states where you have, again, the possibility of--with 
liberalization of the law, are we taking some steps to try to 
ensure the safety of the public and again the transportation 
mode? An airline pilot, a commercial one can be taking a couple 
of hundred people in the air, passenger rail.
    We didn't get into, in our headline here, pipeline safety 
or maritime or others, but they all pose different risks. Tell 
us where you're going with these modes that put public safety 
at risk?
    Ms. Kelly. Well, we do feel that our program is effective, 
and the way our program is structured through the regulation--
--
    Mr. Connolly. Ms. Kelly, could I ask you to put that 
microphone closer to you. Thank you.
    Ms. Kelly. Yes, sir. Thank you.
    Under the regulations, our program is administered through 
the individual employers.
    Mr. Mica. But it's historic and it's been developed, but it 
was--and it's applied, but it is--you're mostly talking in 
terms of how things have in the past or----
    Ms. Kelly. Uh-huh.
    Mr. Mica. But not how things are most recently and where 
we're going with this.
    Ms. Kelly. We don't conduct the testing ourselves.
    Mr. Mica. Yeah.
    Ms. Kelly. We require the employers to conduct it.
    Mr. Mica. Right.
    Ms. Kelly. And so many of our employers are nationwide 
employers.
    Mr. Mica. Have you changed any of those requirements?
    Ms. Kelly. No, sir, we have not. We have maintained under 
the regulation, the random testing----
    Mr. Mica. It's same old, same old, but see, that's my point 
is I think we're--you have to go to risk based when you're 
doing most of these approaches to try to ensure safety, and 
preemployment is one, we've done that in the past, we're doing 
that.
    Now, we have a new situation with much more of this 
available narcotic on the market, and we've seen an increase in 
use just by the statistics that were presented by some of the 
panelists today. But are you adapting the Department of 
Transportation regulations or advisories to where we see the 
most risk?
    Okay. We've got FAA, we've got Federal Railroad 
Administration, we've got National Highway Safety. Tell me if 
there have been any changes in directives in the last 24 
months?
    Ms. Kelly. There have not been any changes to our random 
testing rates, but many of our employees are interstate, and so 
if a pilot flies in and out of Denver, doesn't mean necessarily 
that he or she lives anywhere near Denver, so many of our 
employees throughout the different modes of transportation are 
not purely in one state. They operate cross states and----
    Mr. Mica. Well, again, I think we need to be a little bit 
preemptive in DOT in protecting people. I had dinner the other 
night with a friend from Florida and asked him what he was 
going to do for a vacation. He says, well, we're putting it off 
a little and we're going to go skiing, and he said--he said--
this is just in conversation. He said we had planned to go to 
Colorado, he says, but the last thing I want to do is take my 
three kids out there and have somebody stoned, you know, posing 
a risk to him. He's going to Utah. I mean, not just----
    Mr. Connolly. No risk there.
    Mr. Mica. There will never be any risk in family friendly 
Utah, but I mean, that's one change a father in behavior. We 
are responsible for the safety of the public. You're 
responsible for administrating rules, regulation that impact 
pilots who carry passengers, trains--I mean, I showed that one 
crash, 25 people killed, and that's before some of these 
changes in law are granted, so--and we've seen that, again, 
incidents of use, whether it's young people or older, is more 
so.
    You've told me there aren't any changes, and I want to 
get--we'll get a message to Mr. Fox and others that we do need 
to look at adapting this. We also need to get the data. Maybe 
there isn't the problem that is perceived, and the data would 
support that. Maybe it's worse than what we imagine, but we 
need to know. We need to act based on facts and act based on 
risk and preempt as much, as you can, bad effects on the 
general public and their safety.
    Ms. Kelly. Well, and the data is a good point, sir. We 
collect data from the laboratories, the laboratory confirmed 
positives, and we've been doing that every 6 months in our 
office with Aggregate National Data, but what we've seen so far 
since 2008 is a steady rate of marijuana positives ranging 
between 21,000 to 22,000 out of roughly 2.5 to 3 million 
employees tested each 6-month period, so we have seen those 
numbers remain the same across the nation. Again, as it comes 
in as Aggregate.
    Mr. Mica. Again, I think it's important, too, that we look 
from a safety standpoint. I'm not selling any products, but 
this is the only one I found available, this particular 
European model for testing, and again, this swabs, can be used 
on site. I don't know if we're looking at these, using this 
kind of a test for truck drivers, train drivers, you know, 
where we're doing spot checking. We're not doing it--using 
anything like this now, are we?
    Ms. Kelly. We're required by the statute, the Omnibus 
Transportation Employee Testing Act to follow the science as 
it's developed by the Department of Health and Human Services 
and implemented through the mandatory guidelines, so we look 
to----
    Mr. Mica. But we have none of the--this is not accepted 
yet, Mr. Flegel, is it?
    Mr. Flegel. Currently we are looking at having the oral 
fluid standards come out and then be implemented public.
    Mr. Mica. And is that--and ITSA, or whatever it is.
    Mr. Flegel. No, this would be through the mandatory 
guidelines.
    Mr. Mica. Okay.
    Mr. Flegel. Right, and----
    Mr. Mica. But at least they're involved in setting 
standards; is that correct?
    Mr. Flegel. We actually set the mandatory guideline testing 
cutoff----
    Mr. Mica. Okay.
    Mr. Flegel. --and standards. So, once those standards are 
out to the public and be commented, we would like to evaluate 
all these devices.
    Mr. Mica. Can you give us, the committee, a chronological 
estimate as to when you're going to complete, again, your--what 
you're saying here before the committee, because dealing with 
some of the standards, I just pulled down the national 
standards and testing bill a couple of weeks ago, or within the 
last 2 weeks just because they had jerked us around for 10 
years on a biometric standard for an iris I.D. and they 
promised and promised and not performed.
    I don't want to be coming back to a hearing saying where 
are they, we are developing these things. We need some Federal 
standards and we need also new tests that have acceptable 
standards to evaluate people who are on the job in 
transportation and make certain the public is safe. Do you see 
my point?
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman.
    By the way, I know the chairman did not mean to suggest in 
any way that Colorado is not a safe place to go skiing. His 
friend at dinner may have a private view. I'm sure there are 
wonderful reasons to go to Colorado and Utah and anywhere else 
one wishes to ski, and I know my Colorado colleagues who aren't 
here would want me to say that, so I'm sure you didn't mean to 
suggest that, Mr. Chairman.
    Mr. Mica. No. Maybe he could stay home in Florida or go 
to----
    Mr. Connolly. Right.
    Mr. Mica. Go to Virginia.
    Mr. Connolly. Florida and Virginia, however, obviously are 
better.
    Mr. Hart, there is legislation with respect to pilot 
licensed medical certification here in the Congress that would 
actually no longer require medical certificates for pilots 
whose craft carries up to five passengers. Are you aware of 
that legislation?
    Mr. Hart. Yes, I'm aware of that legislation.
    Mr. Connolly. And what do you think about it?
    Mr. Hart. Well, we are very concerned about pilots flying 
without, you know, inadequate medical standards.
    Mr. Connolly. Right.
    Mr. Hart. But we based our what we--our policy based on 
what we see in accidents, and so far we haven't seen enough 
accidents to warrant an agency position on it yet, but we are 
very concerned not only about not having to have a medical, but 
then, in addition to that, if you don't have a medical, you are 
less likely to pay attention to the FAA's list of prohibited 
legal drugs as well as obviously the illegal drugs----
    Mr. Connolly. Right.
    Mr. Hart. --but also the legal drugs, and we're concerned 
that that list will not be paid attention to by people who 
don't have a medical certificate.
    Mr. Connolly. It just strikes me as very odd. Here we are 
having a hearing on, you know, the utilization and potential 
harmful effects of any kind of drug or controlled substance in 
the operation of any kind of vehicle and meanwhile there is 
apparently legislation that would exempt a class, a subclass of 
people who fly airplanes, and I can't believe for a minute that 
if we really are concerned about the use of marijuana or any 
other drug, that we would ever countenance legislation like 
this.
    I cannot believe that that could come to any good, so I 
encourage you, Mr. Hart, and your colleagues to re-examine that 
legislation and hopefully take a position on it because it 
seems to contradict everything we're talking about this morning 
at this hearing.
    Mr. Hart. We will certainly pay close attention to that in 
our future accident investigations.
    Mr. Connolly. Thank you.
    Dr. Michael, I was just thinking about, talking about 
driving while impaired and things that we discourage. For 
example, we're worried about THC, but I mean, texting while 
driving, bad idea?
    Mr. Michael. Of course, sir, very bad idea.
    Mr. Connolly. Kills people?
    Mr. Michael. Of course.
    Mr. Connolly. Do we have data on it?
    Mr. Michael. Yes, we do.
    Mr. Connolly.How many people were killed on the roads last 
year texting while driving?
    Mr. Michael. Distraction in general is about 3,000 people. 
Texting alone is several hundred.
    Mr. Connolly. Right. Alcohol and driving?
    Mr. Michael. In 2012, 10,322 people died in crashes in 
which a driver had a blood alcohol limit above the legal limit.
    Mr. Connolly. Sleep deprivation?
    Mr. Michael. Sleep is harder to measure, of course, but we 
believe it is a significant problem.
    Mr. Connolly. Would it be fair to say, by the way, that 
studies on sleep deprivation and driving suggests that sleep 
deprivation mimics in almost exact detail drinking and driving 
in terms of impairment?
    Mr. Michael. At least in some details.
    Mr. Connolly. Aggressive driving, driving at unsafe speeds?
    Mr. Michael. As many as a third of crashes are attributed 
at least in part to excessive speeding.
    Mr. Connolly. And how many deaths can we attribute to THC 
in the bloodstream?
    Mr. Michael. Currently, that's difficult to say, sir.
    Mr. Connolly. Hmm. I just, fair enough, probably not zero.
    Mr. Michael. Probably not.
    Mr. Connolly. But we don't know.
    Mr. Michael. We don't. We don't have a precise estimate.
    Mr. Connolly. We do have precise estimates on distracted 
driving, 3,331. We have precise estimates of drinking and 
driving, so I just want to put it in context. No one is arguing 
that it's a good idea, but the fact of the matter is we don't 
have a lot of data.
    Now, let me ask. Do we have a standard, if I could borrow 
your gizmo here for a minute.
    Mr. Mica. You want to swap?
    Mr. Connolly. The chairman points out that in parts of 
Europe they take a swab sample, put it in here and measure THC. 
Do we have any such device that we use in our law enforcement 
in the United States?
    Mr. Michael. Yes. Excuse me, sir. There is some use of 
devices very similar to that by law enforcement. In fact, we 
are currently doing a pilot test in California to test the 
feasibility of more widespread use of devices very similar to 
that.
    Mr. Connolly. We have an alcohol standard that blood 
alcohol above a certain standard, you're in legal jeopardy. 
Would you remind us what that standard is?
    Mr. Michael. .08 blood alcohol.
    Mr. Connolly. And that's a national standard.
    Mr. Michael. Yes, it is.
    Mr. Connolly. And accepted by virtually all States?
    Mr. Michael. That's right.
    Mr. Connolly. Do we have a comparable standard for THC?
    Mr. Michael. No, we don't, sir. The available evidence does 
not support the development of an impairment threshold for THC 
which would be analogous to that for alcohol.
    Mr. Connolly. Why is that, Dr. Michael?
    Mr. Michael. The available evidence indicates that the 
response of individuals to increasing amounts of THC is much 
more variable than it is for alcohol, so with alcohol, we have 
a considerable body of evidence that can place risk odds at 
increasing levels of blood alcohol content. For example, .08 
blood alcohol content is associated with about four times the 
crash risk of a sober person. The average arrest is .15 THC. 
That's associated with about 15 times the crash risk.
    Beyond a--some broad confirmation that higher levels of THC 
are generally associated with higher levels of impairment, a 
more precise association of various THC levels and degrees of 
impairment are not yet available.
    Mr. Connolly. That's really interesting. So we don't have a 
uniform standard. The variability is much greater than that 
with other controlled substances such as alcohol.
    Mr. Michael. Yeah.
    Mr. Connolly. We actually can't scientifically pinpoint 
levels of impairment with any accuracy. We would all concede 
there's some impairment for some period of time, but it's very 
variable, and we're not quite sure yet, certainly not sure 
enough to adopt a uniform standard as to here's the maximum 
level beyond which we know there's serious impairment?
    Mr. Michael. That's fair to say, sir.
    Mr. Connolly. Wow. And that's a substance 1 controlled 
substance.
    Well, I think it underscores--your testimony underscores, 
Dr. Michael, why we need a lot more science here, and I guess 
what really strikes me is that meanwhile, as I said in my 
opening statement, the laboratories of Democracy, 22 states 
plus the District of Columbia, have decided to legalize 
marijuana in some fashion, most of them for medical purposes, 
but some of them even for recreational purposes, and meanwhile, 
at least on a national level, we're not comfortable with the 
science, and in terms of the impact of THC on operating a 
vehicle of any kind. Fair statement?
    Mr. Michael. Yes. And of course, we're pursuing that 
science.
    Mr. Connolly. I understand. So, we're pursuing it. Is there 
a goal or an end, you know, date where we want to achieve so by 
a certain date we hope to have some preliminary--well, we hope 
to have the basis upon which to examine or adopt some 
preliminary standards comparable to other substances?
    Mr. Michael. We have sponsored some work with standards 
development with regard to measurement techniques and specific 
drugs to be measured in--among drivers involved in traffic 
crashes and also minimum cutoff levels that represent the 
analytical capabilities of existing technology. Those 
recommendations have been established. What we lack are a 
thresholds of impairment that are analogous to .08 BAC.
    One step that is currently ongoing that will take us well 
into that direction is the crash risk study that I mentioned in 
my opening statement. This is the same sort of study that was 
done for alcohol a number of years ago which established those 
risk levels that I told you about. So this involves a very 
careful look at two groups of subjects, one group who has been 
involved in a crash, another group who has not, and looking for 
relative concentration levels of factors that might have caused 
a crash, factors such as THC use. Those kinds of studies can 
develop the risk odds that could potentially be used to develop 
a threshold in the future.
    Mr. Connolly. I thank you, and I wish you luck in your 
research. I just think it is amazing with some of the 
hyperventilated rhetoric about marijuana use and THC that 50 
years after, I guess it's 50 years we've declared it a class 1 
substance, we still don't have enough data to know just how 
dangerous it is in operating a vehicle.
    Mr. Michael. That's correct.
    Mr. Connolly. And that really raises questions about 
either, you know, the classification itself and whether that 
makes any sense or raises serious questions about how our 
Government's operating in terms of the data it does not have 
and the science it does not know and yet the assertions that we 
make. And that is not a good recipe for rational public policy, 
and it's one of the reasons, I suggest, why 22 states have just 
headed in a different direction, but there's danger in that, 
too, because they're going in a direction also without the 
science, and there are lots of complications.
    The previous hearing we had, and Dr. Fleming and I talked 
about this, along with the chairman, you know, you've got 
doctors in States where legalization for medicinal purposes has 
been granted who, nonetheless, really don't have protocols, 
really don't have the science to decide on, you know, levels of 
efficacy, mixing it with other drugs for enhanced efficacy, 
potential dangers, overdose, whatever, and I just think we're 
at a point where we've got to get a lot more serious about the 
science in order to have, to fashion rational public policies, 
including with respect to transportation safety.
    I thank you all for your testimony, and Mr. Chairman, 
again, a thoughtful hearing, and I thank you.
    Thank you, Dr. Fleming.
    Mr. Mica. Thank you.
    Dr. Fleming.
    Mr. Fleming. Thank you, Mr. Chairman.
    Mr. Michael, to kind of follow up on some of the question 
from my good friend from Virginia. We don't have adequate 
science on the effects of marijuana, THC specifically on the 
body, and speaking as a physician and someone who's worked in 
the area of addiction, my understanding of this is that it's a 
much more complex interaction in physiology between the drug 
and the body. For instance, we know metabolites remain in the 
body for after 30 days after use. Much of it is stored in the 
fat, so fat body content can affect. Would that be a correct 
assumption on my part that that's really what makes this a more 
difficult issue in terms of measurement than alcohol?
    Mr. Michael. Yes, sir. Of course, you're completely right 
on that. The study of the effect of THC on driving is much more 
challenging in just about every aspect than that for alcohol.
    Mr. Fleming. Right. So really it's multidimensional as 
opposed to alcohol, which you can draw a straight line on the 
graph, again plus or minus a small tolerance level, .08 is when 
people become far more impaired, hitting a critical threshold. 
We just don't know that. Even if it exists in THC, it may be a 
much smoother graph.
    Well, given the fact that we have certainly a lack of 
knowledge of the effects of THC on the body and on the brain 
and behavior, although we know we have a lot of examples of 
problems from it, would it lead you to be more restrictive 
until we get that information or less restrictive in the 
application and allowance of the use of that drug going 
forward?
    Mr. Michael. With regard to use on the roadway, which of 
course is my major concern, it's the decision of the States how 
they want to deal with these impairment issues. We've tried to 
provide them with guidance, with scientific evidence that they 
can use to support effective policies.
    We've been able to do that with alcohol, and States have 
been able to respond very positively to alcohol impairment and 
drive those numbers down. In 2012, there were just over 10,000 
killed in such crashes, 20 years previously, that number was 
well over 20,000.
    Mr. Fleming. But I mean, going beyond whether we're 
talking--comparing THC with alcohol or any other drug, and I'm 
asking your personal opinion, I'm going to ask the opinion of 
the rest of the panel members here as well. If you have a drug 
that you really can't define the effects adequately but we know 
that it can have serious, in fact, proof that it can actually 
kill people, does it make sense to be more aggressive in terms 
of relaxing the standards or does it make sense to be more 
conservative and wait for that science to develop?
    Mr. Michael. Well, I think that it makes sense to be very 
cautious with a policy when the complete evidence is not yet 
available.
    Mr. Fleming. Okay. Mr. Hart, what is your opinion, sir?
    Mr. Hart. As accident investigators, we follow where the 
accidents take us, and that's the reason that, for example, we 
did something that was very controversial, which was to 
recommend that the blood alcohol content number be reduced from 
.08 to .05 because we know any alcohol is impairing and there 
is no bright line that says this much is too much, and it's 
really a policy question of where should it be for legal 
enforcement. We would have that same approach with respect to 
any other substance, is that it's kind of wait and see based on 
our accident experience.
    Mr. Fleming. So certainly buzzed driving is the same thing 
as impaired driving.
    Mr. Hart. That's the slang for it----
    Mr. Fleming. Yes.
    Mr. Hart. --is buzzed driving, that's correct.
    Mr. Fleming. So whenever there's a question as to being 
more conservative and more protective and more restrictive, 
when in doubt, always be a little safer and a little more 
restrictive, would that be a safe estimate from your opinion?
    Mr. Hart. Well, we are the safety people, so we would 
always go in the direction that is for safety.
    Mr. Fleming. Okay. Very good. I am two for two here. How 
about you, Ms. Kelly?
    Ms. Kelly. Well, we rely on the science, and we make the 
policy based on the science.
    Mr. Fleming. But when there's a lack of science, do you 
lean towards being more conservative until that science 
develops or to just full steam ahead, let's go ahead and give 
it a chance?
    Ms. Kelly. We remain with the science on it. So when our 
scientists at the Department of Health and Human Services tell 
us that things have changed, then we follow under the Omnibus 
Transportation Employee Testing Act, we follow what they say. 
Until then, it remains a schedule 1, we treat it as a schedule 
1.
    Mr. Fleming. Okay.
    Ms. Kelly. With no excuses.
    Mr. Fleming. So you would agree that certainly being 
cautious, not being aggressive to change something to a more 
relaxed standard without the science to back that safety up, 
you're reluctant to move forward?
    Ms. Kelly. We cannot make changes----
    Mr. Fleming. Yes.
    Ms. Kelly. --without the science, yes, sir.
    Mr. Fleming. You, Mr. Flegel, how about you?
    Mr. Flegel. As with my colleague here from DOT, under 
executive order, THC is mentioned directly, and we will 
continue to test for schedule 1 and schedule 2 drugs.
    Mr. Fleming. So, I think certainly we have somewhat of 
agreement here. I think we can all agree to the fact that until 
we have the science, we should be careful and cautious, and 
certainly one of the things about THC is, because it has been 
illegal, we haven't really been doing the studies, the 
research, and only now, I mean, even some of the important data 
that's come out has only come out very recently as it's become 
legalized.
    For instance, we know that even in casual users, there's 
profound changes in the brain. We see that on MRI scans, and 
we've done a number of them to see that. We also know that a 
longitudinal study showed a progressive decline in IQ, so just 
even with early studies, we're beginning to see a lot of 
problems, and that's notwithstanding the up to 14 percent of 
fatal accidents involve THC.
    Now, we hear about medicinal marijuana. It's interesting 
that in the State of California and in the city of Denver, we 
have more pot dispensaries than we do Starbucks, and I don't 
know what your opinion is, but I don't think people are that 
unhealthy in Denver and in California. Is there anyone on the 
panel that would disagree with that?
    So, again, I question--and here's my question as it 
interacts with what you do. Do you treat someone who is on 
medicinal marijuana versus recreational marijuana any 
differently when it comes to traffic accidents, when it comes 
to being able to say fly an airplane, or to engineer a train, 
do you treat those people any differently? Anyone like to 
comment on that? Yes, go ahead.
    Ms. Kelly. No, sir, we do not in the Department of 
Transportation. All the transportation safety sensitive 
employees are subject to the same testing, and we did issue the 
two statements, one in 2009 in response to the medicinal 
marijuana laws in States, and in 2012 on recreational. Everyone 
is to be treated the same. There is no legitimate medical 
explanation for the schedule 1 drug, marijuana.
    Mr. Fleming. Right. So for all intents and purposes, if 
someone is sick and needs marijuana, that person is disabled 
for the purpose of having a job in transportation?
    Ms. Kelly. If that person tests positive, they will put--
they will be required to be removed from safety sensitive 
functions.
    Mr. Fleming. All right, okay. Very good. Now, there was a 
mention here about, I think, I didn't catch all of the exchange 
there, but I believe there was a--Mr. Connolly brought up Mr. 
Rokita's bill that would actually reduce the standards for 
private pilots such that all you would require is just a 
regular driver's license to be able to qualify in terms of 
safety standards to fly an airplane.
    Mr. Hart, did I catch that right, or am I--or were you 
talking about a different subject?
    Mr. Hart. You are correct. It's legislation to allow 
private pilots to not have to have the medical examination that 
they are now required to have.
    Mr. Fleming. Right. So, in theory, someone could be with 
that standard, and maybe even under the current standard, a 
private pilot could be flying an airplane under the influence 
of marijuana, THC?
    Mr. Hart. That is possible, and we have investigated 
accidents where that was occurring. That's the reason we're 
having this forum, and we're going have this meeting in 
September to look at that and get----
    Mr. Fleming. Right.
    Mr. Hart. --more data and get more specific about it.
    Mr. Fleming. You know, I love to watch documentaries on TV, 
and I was watching one the other night that discussed airplanes 
and mid-air collisions, and what they focused on was private 
aircraft that had drifted in the wrong air lane and interacted 
with a commercial aircraft.
    One that comes to mind, I was living in the area at the 
time was in San Diego. I believe it was 1978 where you had a 
private airplane that drifted in the wrong--they were actually 
in the wrong air space, they collided with a commercial 
aircraft, and hundreds of people died as a result of that.
    So what that would suggest to me is that no matter what the 
highest standards you could ever come up with for a commercial 
pilot, when you have private pilots out there who could be 
impaired and not receive the same high standard, then they are, 
in effect, just as dangerous to the commercial passengers as 
the commercial pilot himself if his standards were lowered as 
well.
    Would you agree or disagree with that? A private pilot 
flying with lower standards in effect has the same potential 
danger impact as if the pilot of the commercial aircraft is 
impaired instead.
    Mr. Hart. When we do our accident investigation, the issue 
of impairment, it may be independent of the issue of what their 
medical standard was. If they're impaired, whether they had a 
medical certificate or not, then we're going to put that in our 
probable cause if that was a cause of the accident.
    Mr. Fleming. Right. So certainly a private aircraft--the 
safety of aviation in general is no better than what the lowest 
standard for any pilot who is in the air, and so as we have 
pilots who in this case, hopefully it will never make it into 
law, but we have pilots who are flying with no more standard 
than to have a driver's license and hopefully will be certified 
to fly, of course, that makes sense but no medical standard 
beyond that, and then we have the legalization and the 
increased medicinalization and decriminalization of marijuana, 
then I see the risk to air travel to be growing in the future 
as we go forward with that.
    So, certainly I would suggest, Mr. Chairman, that we look 
at this at both sides. One is the fact that there is many 
reasons, in my view, why we should not go forward with 
legalization, medicinalization or even decriminalization, but 
also have the highest standards for all who fly in the air 
realizing that there are new threats when it comes to THC.
    One last question. What sort of guidance are you getting 
from the White House? You know, the President has been giving 
some ambiguous cues on this. In 2011 he made very clear 
statements that marijuana should not be legalized, that it's a 
potential danger, and certainly young people should stay away 
from it, but in 2014, he made other statements that suggested 
that it's maybe no worse than tobacco or alcohol, so I'd love 
to hear from you as Government agencies what sort of guidance, 
if any, are you getting from the White House. Mr. Michael?
    Mr. Michael. We work closely with the White House Office of 
National Drug Control Policy, and we are a part of the national 
drug strategy. The office has provided us support for our 
roadside survey and for other research that we've done, so I 
would say that we are getting very good input and very good 
support.
    Mr. Fleming. Okay. Anyone else?
    Mr. Flegel. I would say also the same. We work closely with 
the Office of National Drug Control Policy in setting 
standards. They set policy, we set the regulatory side, so 
we've worked well with them over the last year.
    Mr. Fleming. But have you been moved in any direction 
towards relaxed standards or legalization of marijuana from the 
White House, any guidance in that direction?
    Mr. Flegel. We are currently, as I stated, under executive 
order, so we are under executive order to test for schedule 1 
and schedule 2 drugs, and that will remain.
    Mr. Fleming. Okay. All right.
    Thank you, Mr. Chairman. A very interesting discussion----
    Mr. Mica. Thank you.
    Mr. Fleming. --and panel. Thank you so much.
    Mr. Mica. Thank you, Dr. Fleming.
    Didn't the President, after he made his statement it was no 
worse than alcohol or tobacco, we did have testify the ONDCP, I 
think it was his deputy, and he said he disagreed with the 
White House. So you-all said you've been working with ONDCP, 
you would agree with them more than you would with the 
President, Mr. Hart? Come on, I want to put you on the spot.
    Mr. Hart. Our guidance is to investigate accidents, find 
out what happened, and recommend what is necessary to----
    Mr. Mica. And that's right. You didn't commit yourself on 
that, but Dr. Michael did. Okay, Dr. Michael, you said you were 
working with ONDCP and you concurred with them, so which--you 
agree with what they said, ONDCP?
    Mr. Michael. We are in agreement with ONDCP, and I would 
like to say we are in agreement with the President as well.
    Mr. Mica. Oh, now. I could make a funny comment now but I 
won't. We might have to get the testing equipment out here.
    Mr. Flegel.
    Mr. Flegel. And again, we work closely with ONDCP on 
everything as far as, both in setting----
    Mr. Mica. But again----
    Mr. Flegel. --the standards.
    Mr. Mica. --the President said one thing. We hauled in the 
deputy director. He disagreed with the President. We had a 
whole host of people, DEA, other agencies who also disagreed 
with the President on--and that was my point. I tried to 
embarrass you, but it didn't work.
    So Dr. Michael, you said it's the decision of the States 
really, but the Federal Government does set some standards, and 
we have a .08 standard now. If you don't comply with that, we 
can penalize you and that is an incentive, is it not?
    Mr. Michael. Yes, the Congress established a statute.
    Mr. Mica. Yeah, and that's come down. In fact, I just read 
your office, or one of the office's--yeah, it's your office 
said just recommended going to .5; is that right?
    Mr. Michael. I believe that was a recommendation from----
    Mr. Mica. Mr. Hart. Okay. I knew one of you did, but 
there's a recommendation, and then we do assess penalties to 
states that don't comply where there is some, some reduction in 
their eligibility for programs or funds. But that was your 
recommendation, Mr. Hart?
    Mr. Hart. That was our recommendation, that's correct, Mr. 
Chairman.
    Mr. Mica. One of the problems we have here is we don't have 
federal standards. We do have States adopting standards. 
Colorado, it's five nanograms per milliliter, I guess, and is 
there any consideration of any standard under way other than 
what the national standards board is considering? Are you guys 
looking at anything? Dr. Michael.
    Mr. Michael. Yes, we are. We, recognize that we need more 
testing of drivers at the state level.
    Mr. Mica. And then you need some means of testing and I 
want you also to comment, you said you're using some similar 
devices in testing. There's nothing with a standard, there's 
nothing that has been accepted as an acceptable or certified, 
I'm sure you haven't certified anything yet, piece of equipment 
that can test, correct?
    Mr. Michael. That's right. The technology, which you have 
in your hand, is developing rapidly, and we think this will 
improve testing quite a lot.
    Mr. Mica. You said California you're doing some testing?
    Mr. Michael. Yes, we're doing some pilot tests in four 
locations in California as we speak to test the feasibility of 
those with the idea, if they are working well, that encouraging 
their use by states. More testing, we believe, would also 
call----
    Mr. Mica. Is this just internal, or are you working with 
the national standards testing agency?
    Mr. Michael. This test is--we're working with State 
officials on this.
    Mr. Mica. But not with the ones who are setting the 
standard, or at least looking at setting some standards which 
would be our National Standards testing, NS, whatever the 
initials are----
    Mr. Michael. Yeah.
    Mr. Mica. It's NS.
    Mr. Michael. No, we are not working with----
    Mr. Mica. I think it would behoove you to contact them, and 
we'll also. I'll ask the committee to put you in touch with 
them. I've had my go-arounds with them, and they do take awhile 
to develop a standard. I mean, it's an important responsibility 
and you have to be accurate, and whatever you adopt does become 
a standard. So, I would suggest that, you know, I don't do 
these hearings just to hear ourselves talk. We're trying to 
also stay ahead of the curve.
    We have changing, dramatically changing laws that our 
states--and it changes social behavior, and we don't have the 
same--Mr. Connolly was talking about the marijuana when he went 
to college or something, and this is much more powerful----
    We've had testimony that confirms this that we've got 
people more at risk, we've got laws rapidly changing, societal 
view of the risk, and then we talked about teens are most 
susceptible and also the most vulnerable and the most 
slaughtered by transportation, by a vehicle, many of them by 
alcohol, some by substance abuse, and we see increasing use of 
that particular among the most vulnerable who are now viewing 
this as less of a risk, so we do have some serious issues here.
    No standards, no testing capability, and then we haven't 
done--we've done some testing in the past, 2007, 2013, we don't 
have that data back. I want to see some data and I want to see 
Fox and others looking at beefing up the testing and the 
regulations where we have now more exposure to a schedule 1 
narcotic being more available to the public and the 
implications on public safety and transportation. So, that's 
something hopefully positive that can come from this.
    Also, it's my understanding marijuana stays in the system 
longer than alcohol. We've got a whole host of things that need 
to be looked at, and again, implications from a different type 
of substance that is posing a risk. I've been on transportation 
for two decades, says something good about some institutional 
knowledge, but one of the things we focused on transportation, 
when you see people getting slaughtered by the tens of 
thousands a year, we did some simple things. We put in 
guardrails in the median, there were so many crossover--we put 
in simple, what do you call it, the rumble strips so people who 
fall asleep are awakened or shaken alert. We've encouraged the 
safety airbags on the side and structural changes.
    Now, if we don't do something when we see a danger of a new 
narcotic, again, the potential of more people impaired, driving 
while impaired, whether, again, a vehicle, manning a train, 
piloting, and I showed just a few samples of the civil planes 
that went down. We have pages and pages. I shared four. I 
showed one picture of a teenage fatality, and we know from the 
blood test, the people say no one gets killed from smoking 
marijuana, well, I differ with that, so it's a serious issue. 
We have serious responsibility, and I intend to pursue the 
matter beyond even this hearing.
    So I thank each of you for coming out, for being part of 
today's hearing. Hopefully we can all do a better job, and 
there being no further business, well, let me see. With the 
concurrence of the minority, we'll leave the record open for 10 
additional days. We may have additional questions, and I've 
asked for additional information to be submitted for the 
record. Without objection, so ordered.
    Mr. Mica. No further business before the Government 
Operations Subcommittee, this hearing is adjourned. Thank you.
    [Whereupon, at 10:51 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] T9703.042

[GRAPHIC] [TIFF OMITTED] T9703.043

[GRAPHIC] [TIFF OMITTED] T9703.044

[GRAPHIC] [TIFF OMITTED] T9703.045

[GRAPHIC] [TIFF OMITTED] T9703.046

[GRAPHIC] [TIFF OMITTED] T9703.047

[GRAPHIC] [TIFF OMITTED] T9703.048

[GRAPHIC] [TIFF OMITTED] T9703.049

[GRAPHIC] [TIFF OMITTED] T9703.030

[GRAPHIC] [TIFF OMITTED] T9703.031

[GRAPHIC] [TIFF OMITTED] T9703.032

[GRAPHIC] [TIFF OMITTED] T9703.033

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
